                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES FOR CORPORATION
     FOR NATIONAL AND COMMUNITY SERVICE GRANTS
        AWARDED TO THE ELVIRITA LEWIS FORUM

                     OIG REPORT 09-06




                         Prepared by
                 Office of Inspector General
                1201 New York Avenue, NW
                          Suite 830
                  Washington, DC 20525



This report was issued to Corporation management on December 12, 2008. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
June 12, 2009 and complete its corrective actions by December 12, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                     NATldONAL&
                                     COMMUNITY
                                     SERVICEt.t1t
                           OFFICE OF INSPECTOR GENERAL

                                         December 12,2008




TO:            Rocco Gaudio
               Deputy Chief Financial Officer for
               Grants and Field Management

              R. Craig Warner
              Director, NV State Office

FROM:          Stuart Axenfeld     ~ A~
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General Report 09-06 Agreed-Upon Procedures of
               Corporation for National and Community Grants Awarded to the Elvirita Lewis
               Forum


Attached is the final report on the OIG's Agreed-Upon Procedures Review of Corporation
Senior Corps Grants Awarded to the Elvirita Lewis Forum.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by June 12, 2009. The Notice of final action is due by December 12, 2009.

If you have any questions or wish to discuss the draft, please contact Rick Samson, Audit
Manager, at (202) 606-9380 or Karen Gardner, Auditor, at (202) 606-9357.

Enclosure

cc:     Steven, Brummel, Elvirita Lewis Forum President
        Mary Ann Dyer, Elvirita Lewis Forum Director
        William Anderson, Deputy Chief Financial Officer for Financial Management
        Tess Scannell, Director, Senior Corps
        Margaret Rosenberry, Director, Grants Management
        Suzanne Fahy, Executive Officer, Senior Corps
        Claire Moreno, Senior Grants Officer
        Sherry Blue, Audit Resolution Coordinator




                       1201 New York Avenue, NW * Suite 830, Washington, DC 20525
                                                               *
                         202-606-9390 * Hotline: 800-452-8210 www.cncsoig.gov
                                                                                         USA~-
                                                                                         Freedom Corps
                          Senior Corns   * AmeriCorns * T.earn and Serve America         Make a Difference. Valunteer.
                              AGREED-UPON PROCEDURES FOR
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE GRANTS
                           AWARDED TO THE ELVIRITA LEWIS FORUM

                                                            CONTENTS

Section                                                                                                                            Page

Executive Summary ........................................................................................................          1

Summary of Results ........................................................................................................         1

Results of Agreed-Upon Procedures ...............................................................................                   2

Agreed-Upon Procedures Scope ....................................................................................                   8

Background .....................................................................................................................    9

Exit Conference................................................................................................................     9




Appendices

A: Elvirita Lewis Forum’s Response to the Draft Report
B: Corporation for National and Community Service’s Response to the Draft Report
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an agreed-upon procedures (AUP) review of Senior Corps
grants awarded to the Elvirita Lewis Forum (ELF), a non-profit organization that
administers Corporation Senior Corps grants. We performed this review at the request
of the Corporation’s Nevada State Office. The purpose of the review was to determine
whether the costs claimed are allowable, adequately supported, and charged in
accordance with the terms of the grant and applicable laws and regulations.

We found that ELF’s methods for charging employee salary costs and travel costs were
not in compliance with Federal regulations. Salary costs charged to the grant were not
based on time and activity reports. The Foster Grandparent Program (FGP) staff travel
costs were charged based on the grant budgets. ELF’s financial policies and
procedures did not include written policies for the drawdown of funds. Additionally,
ELF’s occupancy cost transactions, conducted with a related party, were based on fair
market value instead of the cost of ownership.

                                 SUMMARY OF RESULTS

1.   Salaries of ELF employees charging time to the Senior Companion Program (SCP)
     and FGP grants were not supported by time and attendance reports prepared in
     accordance OMB Circular A-122, Cost Principles for Non-Profit Organizations,
     Attachment B., Selected Items of Cost.

2.   ELF claimed budgeted, not actual, travel costs to the FGP grant.

3.   ELF does not have written policies and procedures for the drawdown of funds from
     the Department of Health and Human Services Payment Management System
     (PMS).

4.   Segregation of financial responsibilities was not adequate.

5.   Occupancy cost was based on fair market rental value, not the cost of ownership.




                                           1
RESULTS OF AGREED-UPON PROCEDURES

1. ELF personnel were not using activity based timesheets.

Time and activity reports for ELF employees who charged time to the SCP and FGP
grants did not contain sufficient details, as required by OMB Circulars. The timesheets
did not specify or distribute time by grant or cost objective. ELF salaries are paid from
multiple administrative fund accounts. The timesheets captured the total hours worked
each day and did not contain any detail as to how the time should be charged to specific
grants.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B.,
Paragraph 8., Compensation for personal services states:

   m. Support of salaries and wages.

   (1) Charges to awards for salaries and wages, whether treated as direct costs
   or indirect costs, will be based on documented payrolls approved by a
   responsible official(s) of the organization. The distribution of salaries and
   wages to awards must be supported by personnel activity reports, as
   prescribed in subparagraph 2, except when a substitute system has been
   approved in writing by the cognizant agency. (See subparagraph E.2 of
   Attachment A).

   (2) Reports reflecting the distribution of activity of each employee must be
   maintained for all staff members (professionals and nonprofessionals) whose
   compensation is charged, in whole or in part, directly to awards. In addition,
   in order to support the allocation of indirect costs, such reports must also be
   maintained for other employees whose work involves two or more functions
   or activities if a distribution of their compensation between such functions or
   activities is needed in the determination of the organization's indirect cost
   rate(s) (e.g., an employee engaged part-time in indirect cost activities and
   part-time in a direct function). Reports maintained by non-profit organizations
   to satisfy these requirements must meet the following standards:

     (a) The reports must reflect an after-the-fact determination of the actual
   activity of each employee. Budget estimates (i.e., estimates determined
   before the services are performed) do not qualify as support for charges to
   awards.
     (b) Each report must account for the total activity for which employees are
   compensated and which is required in fulfillment of their obligations to the
   organization.
     (c) The reports must be signed by the individual employee, or by a
   responsible supervisory official having first hand knowledge of the activities
   performed by the employee, that the distribution of activity represents a
   reasonable estimate of the actual work performed by the employee during the
   periods covered by the reports.

             *        *      *




                                            2
   (4) Salaries and wages of employees used in meeting cost sharing or
   matching requirements on awards must be supported in the same manner as
   salaries and wages claimed for reimbursement from awarding agencies.

ELF personnel stated that they were unaware of the requirement to maintain activity
based timesheets until a recent audit finding of ELF’s state-issued grants reported the
timekeeping deficiency. Additionally, ELF personnel believed administrative funds from
all grant sources could be used interchangeably, and outlays did not have to be
documented and tracked to the applicable grant; therefore ELF was charging both grants
according to the availability of administrative funds.

Because the grantee’s timekeeping system does not comply with OMB requirements,
ELF labor costs charged to the grants could be overstated. Additionally, management
oversight and budgeting of grant labor costs is weakened without an actual history of the
cost. We performed alternative procedures for labor costs charged during our agreed-
upon procedures period and did not question those costs.

Recommendations

We recommend that the Corporation:

      Require ELF to develop and implement time and activity reports (timesheets) that
       comply with OMB Circular A-122.

      Ensure that grantee uses activity based timesheets and does not charge
       unauthorized labor costs to the SCP and FGP grants.

   ELF RESPONSE

   ELF concurred that it was not using activity based timesheets. ELF will use a
   Division for Aging Services (DAS) time study form to record time by activity. This will
   satisfy the requirements of the Corporation, DAS, and comply with OMB Circular A-
   122.

   OIG COMMENT

   ELF’s planned action satisfies the intent of the recommendation.



2. Travel costs were improperly charged based upon budgeted amounts.

ELF used budgeted, not actual, travel costs to complete its Financial Status Reports
(FSRs) on the FGP grant. A reconciliation of costs claimed to actual incurred costs was
not used to complete the FSRs. However, ELF maintained supporting documentation
and could determine the actual costs associated with travel.

The common rule for administration of Federal grant funds, 45 C.F.R. § 2543.21(b)
Standards for financial management, states:

   Recipients' financial management systems shall provide for the following:


                                            3
   (1) Accurate, current and complete disclosure of the financial results of each
   federally-sponsored project or program in accordance with the reporting
   requirements set forth in § 2543.51.

   (2) Records that identify adequately the source and application of funds for
   federally-sponsored activities. These records shall contain information
   pertaining to Federal awards, authorizations, obligations, unobligated
   balances, assets, outlays, income and interest.

             *        *      *

   (7) Accounting records including cost accounting records that are supported by
   source documentation.

Furthermore, the rules governing administration of Senior Corps grants, 45 C.F.R. §
2551 Senior Companion Program and 45 C.F.R. § 2552 Foster Grandparent Program
both state at their respective subsections .25 that:

   A sponsor shall:

             *        *      *

   (g) Establish record keeping and reporting systems in compliance with
   Corporation requirements that ensure quality of program and fiscal
   operations, facilitate timely and accurate submission of required reports
   and cooperate with Corporation evaluation and data collection efforts.

ELF’s FSR overstated the actual costs reported by $228 for the six month period ending
June 30, 2008. Not reporting actual incurred costs on FSRs limits ELF’s ability to ensure
the costs are allowable under the grant provisions. The fiscal coordinator believed the
budgeted travel costs were accurate and the month-to-month differences would zero out
during the course of the budget year. This amount will not be questioned because the
amount is not material.

Recommendation

We recommend that the Corporation review travel costs reported by ELF to ensure only
actual costs charged to the grant, supported by source documentation, are reported on
the FSRs.

   ELF RESPONSE

   ELF concurred that it charged travel costs based on budgeted amounts. ELF has
   informed employees that submitted travel reimbursement request forms must be
   based on actual mileage.

   OIG COMMENT

   ELF’s planned action satisfies the intent of the recommendation.



                                            4
3. Lack of policies and procedures over drawdown of grant funds.

ELF does not have written policies and procedures for drawdown of funds that reference
how funds are requested from the Department of Health and Human Services Payment
Management System (PMS). According to 45 C.F.R. § 2543.21(b) Standards for
financial management systems:

   Recipients' financial management systems shall provide for the following:

              *       *       *

   (5) Written procedures to minimize the time elapsing between the transfer of funds to
   the recipient from the U.S. Treasury and the issuance or redemption of checks,
   warrants or payments by other means for program purposes by the recipient. To the
   extent that the provisions of the Cash Management Improvement Act (CMIA) (Pub.
   L. 101-453) govern, payment methods of State agencies, instrumentalities, and fiscal
   agents shall be consistent with CMIA Treasury-State Agreements or the CMIA
   default procedures codified at 31 CFR part 205, "Withdrawal of Cash from the
   Treasury for Advances under Federal Grant and Other Programs."
   (6) Written procedures for determining the reasonableness, allocability and
   allowability of costs in accordance with the provisions of the applicable Federal cost
   principles and the terms and conditions of the award.

ELF’s fiscal coordinator was aware of the process and timing for requesting funds when
needed, but did not recognize the need to incorporate the process into ELF’s financial
policies and procedures. Without policies and procedures in place, ELF may overdraw
its PMS account and inaccurately report costs associated with the grant. Developing
and implementing procedures for drawdown of funds provides direction for other ELF
staff to follow in the absence of the fiscal coordinator.

Recommendation

We recommend that the Corporation direct ELF to establish policies and procedures to
document its drawdown process.

   ELF RESPONSE

   ELF concurred that there are no written policies and procedures for drawdown of
   federal funds. ELF will incorporate written procedures for drawdown of federal funds
   in its policies and procedures manual.

   OIG COMMENT

   ELF’s planned action satisfies the intent of the recommendation.


4. Separation of duties was not maintained over the accounting functions.

ELF’s internal controls for separation of financial duties are not effective. ELF has two
employees who share the responsibility for drawing down funds, depositing funds,
reconciling bank statements, preparing checks, signing checks, and preparing grant


                                             5
reports during the AUP period. Although both employees review each other’s work, they
also serve as each other’s back-up, thus giving each of them access to and
responsibility for asset management (including preparing or signing checks), recording of
transactions, and reconciliation of accounts.

The Federal grants administrative common rule, 45 C.F.R. § 2543.21(b) Standards for
financial management states:

   Recipients' financial management systems shall provide for the following:

              *       *       *

   (3) Effective control over and accountability for all funds, property and other assets.
   Recipients shall adequately safeguard all such assets and assure they are used
   solely for authorized purposes.

An effective internal control policy conveys that management is responsible for ensuring
that internal controls are established, properly documented, maintained, and adhered to
throughout their organization. An effective internal control system provides reasonable,
but not absolute assurance for the safeguarding of assets, the reliability of financial
information, and compliance with laws and regulations. Reasonable assurance is a
concept that acknowledges that control systems should be developed and implemented
to provide management with the appropriate balance between risk of a certain business
practice and the level of control required to ensure business objectives are met. The
cost of a control should not exceed the benefit derived from it. The degree of control
employed is a matter of good business judgment. Separation of duties is one of the key
concepts of internal control. It implements an appropriate level of checks and balances
upon the activities of individuals. Separation of duty, as a security principle, has as its
primary objective the prevention of fraud and errors. When duties can not be separated,
compensating controls should be in place.

ELF is a small organization with a limited number of employees, which makes separation
of financial responsibilities difficult. However, without effective separation of duties,
fraud, waste, or abuse of Federal grant funds could occur.

Recommendation

We recommend that the Corporation ensure ELF reviews its financial policies and
procedures periodically and makes adjustments as necessary to assure that no one
individual is assigned job functions in more than one of the following categories: (1)
asset handling and disposition, (2) recording transactions to the general ledger,
subledgers, and journals, and (3) reconciliation, review of transactions, or ensuring that
compensating controls are in place.

   ELF RESPONSE

   ELF concurred that separation of duties for internal control has not been maintained
   for the accounting functions because of the small staff. To establish internal control,
   one of our board members has agreed to review all bank reconciliations after they
   are completed. For the past several years we have provided a check register of all
   checking accounts to each director at the end of the month. This allows the directors


                                             6
   to check the registers against their monthly budget reports. The annual OMB audit
   provides another method to detect fraud or abuse.

   OIG COMMENT

   ELF’s planned action satisfies the intent of the recommendation.


5. Rental costs charged were improperly based on the fair market value of similar
   property.

SCP leases building space from the Dyer Living Trust, for which the FGP Director is the
Trustee. This has resulted in a less-than-arms-length rental transaction. Less-than-
arms-length rental cost transactions are limited to the cost of ownership. Occupancy
costs ELF charged on the FSR were recorded as match and were based on sublease
rental rates of the fair market value of similar property.

According to OMB Circular A-122 Cost Principals for Non-Profit Organizations,
Attachment B., Paragraph 43 Rental cost of buildings and equipment:

   b. Rental costs under “sale and lease back” arrangements are allowable only up to
   the amount that would be allowed had the non-profit organization continued to own
   the property. This amount would include expenses such as depreciation or use
   allowance, maintenance, taxes, and insurance.

   c. Rental costs under "less-than-arms-length" leases are allowable only up to the
   amount (as explained in subparagraph b. of this paragraph 43.) that would be
   allowed had title to the property vested in the non-profit organization. For this
   purpose, a less-than-arms-length lease is one under which one party to the lease
   agreement is able to control or substantially influence the actions of the other. Such
   leases include, but are not limited to those between (i) divisions of a non-profit
   organization; (ii) non-profit organizations under common control through common
   officers, directors, or members; and (iii) a non-profit organization and a director,
   trustee, officer, or key employee of the non-profit organization or his immediate
   family, either directly or through corporations, trusts, or similar arrangements in
   which they hold a controlling interest. For example, a non-profit organization may
   establish a separate corporation for the sole purpose of owning property and leasing
   it back to the non-profit organization.

Between July 1, 2006, and June 30, 2008, ELF reported a total of $67,052 in excess
match and charged $37,080 in rental cost to the SCP grant. ELF had excess match
during each budget year that exceeded occupancy costs charged to the grant.
Therefore, we are not questioning the occupancy cost.




                                           7
            ELF Match Reported During Jul 01, 2006 - Jun 30, 2008 Budget Periods
                                          07-08                06-07          Cumulative Total
Recipient's Share of Outlays
              Volunteer Support    $        287,239      $        247,728     $         534,967
              Volunteer Expense    $        365,778      $        369,136     $         734,914
                                   $        653,017      $        616,864     $       1,269,882


Budgeted Match                     $        612,257      $        590,573     $       1,202,830
            Excess Match           $         40,760      $         26,291     $          67,052

ELF is not in compliance with the requirements of OMB Circular A-122, Attachment B,
Paragraph 43, Rental cost of buildings and equipment which may overstate occupancy
cost on the FSR. ELF personnel were unaware of the limitations set forth in OMB
Circular A-122.

Recommendation

We recommend that the Corporation ensure ELF’s occupancy cost charged to the grant
is limited to the cost of ownership for the rental property.

   ELF RESPONSE

   ELF officials said that, for future reports, the occupancy cost charged to the grant will
   be limited to the actual cost of ownership.

   OIG COMMENT

   ELF’s planned action satisfies the intent of the recommendation.


AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures for the grants and award periods shown
below:

       Program      Award No.            Federal Award Award Period
       ELF FGP      06SFPNV003                $983,520 7/1/2006-6/30/2008
       ELF SCP      06SCPNV001                 $64,056 7/1/2006-6/30/2008

We conducted our on-site field work the week of September 15, 2008. We obtained
additional information for our work through October 27, 2008. The agreed-upon
procedures included testing to ensure costs in the following areas were charged to the
grant in accordance with OMB Circular A-122:

      Salary costs
      Rental and building costs



                                             8
      Vehicle expenses
      Travel costs
      Severance costs paid to a former SCP director

We performed the procedures, which were agreed to by the OIG and the Corporation at
the request of the Nevada State Program Director. This agreed-upon procedures review
was performed in accordance with generally accepted government auditing standards.


BACKGROUND

The Corporation awards grants and cooperative agreements to assist in the creation of
full-time and part-time national and local community service programs. Senior Corps,
one of the three major service initiatives administered by the Corporation, supports the
engagement of nearly 2 million Americans of all ages and backgrounds in service to
meet critical needs in education, the environment, public safety, homeland security, and
other areas. Senior Corps taps the skills, talents, and experience of Americans age 55
and older through three main programs: RSVP, the Foster Grandparent Program, and
the Senior Companion Program. Foster Grandparents serve one-on-one as tutors and
mentors to young people with special needs. Senior Companions help homebound
seniors and other adults maintain independence in their own homes. ELF’s SCP and
FGP serve northern Nevada and northeastern California. ELF also sponsors dental and
hearing aid programs for seniors.

ELF, established in California in 1976, is a family foundation. Its’ mission is the
development and support of programs aimed at maintaining the dignity and productivity
of the elderly as contributing members of society. ELF is the sponsor of FGP and SCP.
In 1987 ELF expanded to Nevada and worked with Catholic Charities of Nevada on FGP
and SCP. In 1990 FGP and SCP transitioned from Catholic Charities to ELF, which has
since sponsored both programs.

ELF receives funds for FGP and SCP from the Corporation, the State of Nevada, the
County of Washoe, and private businesses and individuals. Grants from the Corporation
are the only Federal funds ELF receives. Between July 1, 2006, and June 30, 2008,
ELF received $983,520 for its FGP Grant No. 06SFPNV003 and $64,056 for SCP Grant
No. 06SCPNV001. Match applied to the grants was $706,889 and $1,269,882,
respectively, during the same period.


EXIT CONFERENCE

We provided a discussion draft of this report and conducted an exit conference with ELF
and Corporation representatives on November 6, 2008. Their responses to the draft
report were in this report as Appendices A and B, respectively. In addition, we included
our summary of ELF’s comments in the final report.

We were not engaged to, and did not perform an examination, the objective of which
would have expressed of an opinion on the subject matter. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.



                                           9
This report is intended solely for the use of the management of the Corporation and ELF,
and should not be used by those who have not agreed to the procedures or have not
taken responsibility for the sufficiency of the procedures for their purposes. However,
the report is a matter of public record and its distribution is not limited.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                           10
                   APPENDIX A

Elvirita Lewis Forum’s Response to the Draft Report
[0L£9 ON XH/XZ]             T:LT aZIA 8002/£0/ZT




   November 13, 2008



   Karen J. Gardner, Auditor
   Office of the Inspcclor General
   Corporation for National & Community Service
   1201 New York Avenue, NW, Suite 830
   Washington, DC 20525

   Dear Ms, Gardner:

   Here is our response to the audit for the Agreed Upon Procedures for the Elvirita Lewis
   Forum,

    1. We concur that ELF personnel were not using activity based time sheets, June 2008,
   Division for Aging Services (DAS) had requested that all ELF staff conduct a time study
   to be implemented by July 2008. DAS provides funding to FOP and SCP. They came up
   with this determination after reviewing the OMB audit previously done, The form
   utilized for the time study will satisfy the requirements of the Corporation, DAS and
   comply with OMB Circular
   A-122.

   2, We concur that travel costs were charged based upon budgeted amounts. Employees
   have been informed that we will put a cap on their monthly travel and the amount
   submitted must be for actual miles driven.

   3. We concur that there are no written policies and procedures for draw, down of federal
   money, The ELF policies and procedures will now include the draw down process. It
   was decided that bills will be paid weekly and not on a daily basis to ensure that, no extra
   money is left in the account.

   4. We concur that separation of duties for internal control has not been maintained for
   the accounting functions because of the small staff.

   There are two staff working with fiscal and only one is allowed to sign checks. Other
   signers on the accounts include: directors of programs and an outside ;business person,

  To establish efficient internal control one of our board members has agreed to review all
  bank reconcilations after they are completed. For the past several years we have
  provided a check register of all checking accounts to each director at the end of the
  month. This allows them to check these against their monthly budget reports. The'annual
  OMB audit provides a system to detect fraud or abuse.




          406 Pyramid Way, Sparks, Nevada 89431 Phone: 775.358.2768 Fax: 775.358.2783
                         Email: fgpsparks@sbcgloba[,net www.fostergrandparentsnv.com

7, 1 H   9 fl/   O
                     N                                                                 Htp.;7   Plf17   tr   om
[OL^9 ON XI/XI1 VT : LT NM 8002/eO/ZT




  S. The FOP has a commercial realtor as a board member and he states that the amount
  paid by FGP/SCP is less than one half the cost of the true value.

  For future reports the occupancy cost charged to , the grant will always be limited to the
  actual cost of ownership.

  Please contact me if you have any questions.

  Sincerely,




 koven   W. Bru mel
  President




0 'd   980L'   0
                                                                                V   H    8002   '080
                              APPENDIX B

Corporation of National and Community Service Response to the Draft Report
                                    NATIONAL&:
                                    COMMUNITY
                                    SERVICEttt:C


To:             Gert:aR---:J~ General
From :          Rdcco Gauaio~ Deputy eFa Grants and Field Management
                         I
Date:           November 20, 2008

Subject:        Response to OIG Draft Audit Report on the Review of Audit Report 09-xx
                Agreed-Upon Procedures for Corporation for National & Community
                Service Grants awarded to the Elvirita Lewis Forum.

Thank you for the opportunity to review the draft report on the Review of OIG Report
09-xx, Agreed-Upon Procedures for Corporation for National & Community
Service Grants awarded to the Elvirita Lewis Forum (ELF). We reviewed the draft report
and participated in discussions with representatives of the ELF. We will address all
findings and recommendations at this time.

As noted in the draft, the auditor found that ELF's methods for charging employee salary
costs and travel cost were not in compliance with Federal regulations. Salary costs
charged to the grant were not based on time and activity reports. The Foster Grandparent
Program staff travel costs were charged based on the grant budgets. ELF ' s financial
policies and procedures did not include written policies for the drawdown of funds .
Additionally occupancy costs transactions, with a related party, were based on fair market
value instead of the cost of ownership. As a result, the auditor reconunended the
Corporation:

      1. Require ELF to develop and implement time and activity reports (timesheets) that
         comply with Circular A-12 and ensure ELF uses timesheets and does not charge
         unauthorized labor cost to the FGP and SCP grants.
      2. Review travel costs reported by ELF to ensure only actual costs of the grant are
         reported on the FSRs.
      3. Direct ELF to establi sh policies and procedures to document the drawdown
         process.
      4. Ensure ELF reviews the policies and procedures periodically and makes changes
         as necessary to assure separation of financial responsibilities.
      5. Ensure that the occupancy cost charges to the grant is limited to the cost of
         ownership for the rental property.




                            Corporation for National and Community Service
                                    Field Financial Management Center                            US~
                The Curtis Building, Suite 876 E * 60 1 Walnut Street * Philadelphia, PA 19106   Freedom Corps
                                                   *
                                  tel: 215-597-9972 fax: 215-597-4933                            M:>"   0   O;~ '<bIunieer.

                         Senior Corps * AmeriCorps .". leam and Serve America
We concur with the findings and recommendations and will work with the ELF 10 resolve
all matters. After your final audit report is issued, we will issue our proposed
management decision and provide audit follow-up on corrective actions.

cc:           William Anderson, Deputy CFO for Financial Management
              Margaret Rosenberry, Director of Grants Management
              Tess Scannell, Director, Senior Corps
              Suzanne Fahy. Executive Officer Senior Corps
              Frank Trinity, General Counsel
              Stuart Axenfeld, Assistant Inspector General for Audit
              Sherry Blue, Audit Reso lution Coordinator, Office of the CFO
              R. Craig Warner, NV State Director
